<html>
<title> - BALTIC SECURITY AFTER THE WARSAW NATO SUMMIT</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






114th Congress                                 Printed for the use of the
2nd Session              Commission on Security and Cooperation in Europe
_________________________________________________________________________





                 BALTIC SECURITY AFTER THE 
                     WARSAW NATO SUMMIT








            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   DECEMBER 7, 2016
                
                
                
                
                
                
                
                
                
                
                       Briefing of the 
        Commission on Security and Cooperation in Europe
________________________________________________________________________

                         Washington: 2017
                         
                         
                         
                         
                         
                         
                         
                         













          Commission on Security and Cooperation in Europe
                    234 Ford House Office Building
                         Washington, DC 20515
                             202-225-1901
                         <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8f9f8f89ac818d8580c28483999f89c28b839a">[email&#160;protected]</a>
                      http://www.csce.gov
                         @HelsinkiComm

                 Legislative Branch Commissioners




              HOUSE                                 SENATE
CHRISTOPHER H. SMITH, New Jersey           ROGER WICKER, Mississippi,
  Chairman                                  Co-Chairman        
ALCEE L. HASTINGS, Florida                 BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                  RICHARD BURR, North Carolina
STEVE COHEN, Tennessee                     JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida                      TOM UDALL, New Mexico                 
RANDY HULTGREN, Illinois                   SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
  New York
 
                      Executive Branch Commissioners

                       Department of State
               ELISSA SLOTKIN, Department of Defense
              ARUN M. KUMAR, Department of Commerce







ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.



ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.









                           BALTIC SECURITY AFTER THE
                               WARSAW NATO SUMMIT


                            December 7, 2016


                                                              Page
                              PARTICIPANTS

Alex Tiersky, Policy Advisor, Commission on Security and
  Cooperation in Europe..................................        1
Scott Rauland, State Department Senior Advisor, Commission 
  on Security and Cooperation in Europe..................       14
Karl Altau, Managing Director, Joint Baltic American 
  National Committee, Inc................................        2
Michael Johnson, Senior Defense Research Analyst, RAND 
  Corporation............................................        5
Magnus Nordenman, Director, Transatlantic Security 
  Initiative, Deputy Director, Brent Scowcroft Center on 
  International Security, Atlantic Council of the United
  States.................................................       11


                                APPENDIX


Prepared Statement of Karl Altau.........................       25








 
                             BALTIC SECURITY AFTER THE
                                 WARSAW NATO SUMMIT
                              ----------                              

                            DECEMBER 7, 2016


        Commission on Security and Cooperation in Europe
                         Washington, DC




    The briefing was held at 2 p.m. in room 340, Cannon House Office 
Building, Washington, DC, Alex Tiersky and Scott Rauland, Policy 
Advisors, Commission on Security and Cooperation in Europe, moderating.
    Panelists present: Karl Altau, Managing Director, Joint Baltic 
American National Committee, Inc.; Michael Johnson, Senior Defense 
Research Analyst, RAND Corporation; Magnus Nordenman, Director, 
Transatlantic Security Initiative, Deputy Director, Brent Scowcroft 
Center on International Security, Atlantic Council of the United 
States; and

    Mr. Tiersky. Good afternoon, ladies and gentlemen. On behalf of 
Helsinki Commission Chairman Chris Smith and Co-Chairman Senator Roger 
Wicker, I'd like to welcome you to our briefing on Baltic security 
after the Warsaw NATO summit. My name is Alex Tiersky. I'm the 
political-military affairs advisor for the Helsinki Commission. To your 
far right is Scott Rauland, who is our senior State Department 
representative with the Commission. We will be sharing moderating 
duties for today's event.
    I would like to thank you all for coming. I see a number of embassy 
staff here, who I'm pleased to see, as well as some esteemed colleagues 
from think tanks, in addition to our usual audience from the Hill. It's 
lovely to see everybody.
    We're very fortunate to have a great panel for you today on an 
issue that is of great importance to the Helsinki Commission. The 
Commission is well known, of course, to those of you who have been 
following its work for decades since it was signed into law in June of 
1976. It is, of course, very well known for its work on human rights. I 
think because of the changing dynamics in European security, you're 
going to see the Commission increase its activity on the pol-mil 
security, or ``first'' dimension set of issues as well. This briefing 
is part of that increased attention to security issues. And it follows 
on a briefing that we provided in the run-up to the Warsaw Summit on 
what the expectations might be for the decisions that the allies took 
in Warsaw.
    Let me just point out that Baltic security fits under the 
Commission's mandate of providing oversight for the 1975 Helsinki Final 
Act's provisions. There is something called The Decalogue--or 10 
principles--guiding relations between participating states that were 
enshrined at that time by consensus. These include some very topical 
commitments ranging from refraining from the threat or use of force, 
inviolability of frontiers, territorial integrity of states, peaceful 
settlement of disputes--I could go on. A number of these principles 
clearly have been infringed and are under attack in European security 
in recent times.
    Let me quickly turn to introducing our speakers who are going to 
give us a good overview and a basis on which to have a discussion. 
We're very much looking forward to the participation of our audience in 
a question-and-answer session.
    We will start with Karl Altau, who is well known to anyone in 
Washington who follows the Baltic States. He's the managing director of 
the Joint Baltic American National Committee, or JBANC, since 1997. In 
this capacity he's helped conduct extensive advocacy on behalf of the 
Estonian, Latvian and Lithuanian communities in the United States. And 
he played a key role in the NATO accession of the three Baltic 
countries.
    We will then hear from Michael Johnson, who is a senior defense 
research analyst at the RAND Corporation. Mike is a very well respected 
former U.S. Army strategic plans and policy officer, also a West Point 
grad. But most importantly for our purposes, he is the coauthor of an 
extremely impactful study of Baltic State vulnerabilities based on the 
extensive use of wargaming that RAND conducted. The study, which I've 
been aware of for quite some time, certainly shaped thinking in the 
runup to the decisions made at the NATO summit. We're thrilled to be 
able to get our version of a briefing on that wargame effort, that 
study and what RAND is thinking about these issues since the Warsaw 
decisions.
    Finally, to my immediate left, to your right, we'll hear from 
Magnus Nordenman, an old friend of mine from the Atlantic Council's 
Scowcroft Center on International Security. Magnus is also the director 
of the Transatlantic Security Initiative and a key person, the key 
person, in Washington on, among a host of other issues, Nordic Baltic 
defense.
    So we have, as I say, three excellent experts to provide us an 
overview. We'll hear from the presenters and then my colleague, Scott, 
will moderate a question-and-answer session. So let us start with Karl, 
please.
    Mr. Altau. Hello, good afternoon. As you've heard, I'm Karl Altau 
with the Joint Baltic American National Committee. We go by the 
acronym, usually, JBANC, which I will do. We represent the primary 
Baltic American national organizations, the American Latvian 
Association, the Estonian American National Council and the Lithuanian 
American Council. We were founded in 1961 and we're celebrating our 
55th anniversary this year.
    Also, we represent 1 million Baltic Americans. They're mostly 
Lithuanians living in Chicago, believe it or not. But we've worked 
closely with Congress, the administration and its agencies in that half 
a century to enhance United States policy towards Estonia, Latvia and 
Lithuania.
    And I'd like to thank the Commission on Security and Cooperation in 
Europe, the Helsinki Commission, and Alex and Scott for putting 
together this event, this very important and timely briefing focusing 
on security and the Baltic countries. We've worked very closely with 
the Commission on supporting the passage of the Belarus Democracy 
Reauthorization Act and the Magnitsky legislation. We are also 
supporting our Ukrainian friends in their time of need.
    Today, however, we need to get back to our Baltic roots and talk 
about the new reality, or the new realities of deterring Russian 
aggression and dealing with the increasing provocations by Moscow. 
There haven't really been any Baltic-focused public briefings or 
hearings for a long time, mainly because the region has been so 
successful and has been a positive model. Today's briefing also 
coincides with a coordinated visit of Baltic parliamentarians to 
Washington and Congress.
    I'd like to acknowledge my Baltic-American colleagues who are here 
today, along with folks from the embassies, along also with board 
members of the Baltic American Freedom Foundation, an organization 
doing great work in providing practical work experience in the United 
States for young professionals from Estonia, Latvia and Lithuania.
    The Baltics have been doing their job, particularly as NATO Allies, 
since their admission to NATO in 2004. Estonia, Latvia and Lithuania 
have been eager and active partners in NATO and as partners of the 
United States. We see these positive relationships mirrored here in the 
United States daily.
    In the past, we've fought for decades to help raise awareness about 
the Baltic countries and their plight behind the Iron Curtain and to 
help see the countries of our heritage restore their independence. It 
can't be repeated enough, one of the key elements for the duration of 
that time was the Welles Declaration, the U.S. policy to not recognize 
the Soviet annexation of the Baltic countries. It was a principled and 
morally correct policy that stood for 50 years.
    The Baltic-American communities worked very hard to support the 
aspirations of Estonia, Latvia and Lithuania to become NATO members. 
One of the high points was collecting over 25,000 signatures. This was 
back in the old days when we didn't have computers or cell phones. But 
we collected those by hand, over 25,000 signatures from all 50 states, 
plus D.C., plus Puerto Rico, in a year-long campaign to ask the 
President to help ensure that the Baltics were invited to join NATO at 
the 2002 Prague NATO summit. Baltic-American representatives across the 
country came to the White House on September the 10th, 2001, the day 
before 9/11, to deliver these petitions.
    Seeing Estonia, Latvia and Lithuania join the Alliance was 
something we all took great pride in. We are grateful that they have 
punched above their weight and that they remain strong adherents of the 
Alliance principles. Estonia, Latvia and Lithuania are active and 
capable contributors to our joint defense and defenders of Western 
standards and democracy.
    We've all heard the phrase that freedom is not free. It is 
something to constantly improve upon with many tweaks along the way. We 
don't want to see these freedoms, Western values and the framework of 
the relationship with NATO jeopardized. However, with Russia's 
revanchist aggression, we are now experiencing the most difficult 
challenges we have faced in the 25 years of restored independence.
    There have been difficult times before with Russia's offensive 
actions, from energy cutoffs in Lithuania, the 2007 cyberattacks 
against Estonia, continuing disinformation campaigns targeting Latvia. 
Russia's war against Georgia in 2008 was more than an omen. The 
Kremlin's calculations, it appeared, led down a rocky road, which 
eventually manifested itself again with the events in Ukraine. Soon 
there will be three years of war there with daily bloodshed and no end 
in sight.
    Crimea is occupied and info wars have ramped up to new heights. 
Have we done everything to counter this aggression? Has NATO met the 
challenges? Well, we saw some issues incrementally addressed at 
previous summits in Chicago in 2012 and Wales in 2014. The response 
from this summer's Warsaw summit was certainly a more serious 
adjustment of priorities. There, NATO stated it was fully prepared to 
defend the Alliance and pledged an increase in military spending in 
response to Russia's unpredictable and aggressive behavior in the 
region. I'm sure my co-panelists will give a closer look at the details 
of all this and how all these moves fit.
    So this is a challenge for us; what can we do? Three things. First, 
we must ensure that U.S. defense funding needs are met. Second is to 
ensure the transition to a Trump Administration that fully understands 
and supports these goals. Third is to continue to recognize Russia's 
threats as a whole and to support U.S. efforts to address these 
threats.
    So the first point. Our organization has been urging swift passage 
of the $3.4 billion European Reassurance Initiative in the defense bill 
and we're happy to see additional funding being provided for overseas 
contingencies. ERI has been a response to increasing Russian aggression 
and supports increased U.S. investment in five areas: presence, 
training and exercises, infrastructure, pre-positioned equipment, and 
building partner capacity.
    We aren't excited about the prospect of a continuing resolution 
lasting well into spring. We prefer longer-term planning and 
commitment, but we do see ample evidence that there is overwhelming 
support in Congress for addressing Russia's rising militarism. It is 
imperative to send a message that the United States means business and 
that we will continue to stand against tyranny.
    While our NATO Allies, Britain, Canada and Germany, are 
establishing high-
readiness combat battalions in Estonia, Latvia and Lithuania, 
respectively, it is vital to continue showing the U.S. flag in the 
Baltic countries as well, with ongoing increased forward presence, 
regular rotational deployments, operations, exercises and more. We 
can't forget the key National Guard relationships. We can't forget our 
relationships with the Nordic countries, and other relationships.
    As we reach out to the new Trump Administration--this is point 
two--we are reminded about statements made, which questioned the 
purpose and existence of NATO and the commitment of its members. JBANC 
stands firm in its belief that NATO and America's commitments to its 
NATO Allies are fundamental to ensuring the U.S. and European security, 
and urges the next administration to continue to support all NATO 
Allies, including the Baltic countries, and reaffirm commitment to the 
treaty's Article V.
    The Baltics are undeniably strong in their commitments to NATO and 
fully understand what is at stake. Although challenged in fully 
rebuilding their militaries over the past 25 years, they have worked to 
fulfill their NATO obligations. Estonia spends over 2 percent of GDP on 
pledged defensive expenditures. And while currently just under 2 
percent, Latvia and Lithuania have been increasing their military 
budgets more rapidly than any other NATO members over the past few 
years and will be reaching that threshold soon. There has been rock-
solid commitment and engagement by the Baltic countries in supporting 
NATO and U.S.-led actions.
    The Alliance faces increasing unconventional threats. It is 
imperative for allies to share their collective knowledge in key 
security areas, whether cyber, strategic communications or the energy 
security sphere. Estonia, Latvia and Lithuania make substantial 
contributions in all of these areas. The United States cannot allow any 
weakening of resolve or commitment to our allies. The ironclad, long-
lasting friendship of the United States in NATO is critically 
important. Baltic Americans particularly understand the importance of 
effective U.S. leadership in supporting these alliances.
    And I'll add that, together with our partners in the Central and 
East European Coalition, we represent not just three, but 13 
communities in the U.S. and more than 20 million Central and Eastern 
European Americans. Together, we all strongly back the United States' 
continued, unconditional commitment to upholding the NATO treaty, as 
well as U.S. support for the territorial integrity and sovereignty of 
all Central and Eastern European nations. The organization stands firm 
in its belief that America's close cooperation with all NATO Allies and 
partners is fundamental to ensuring U.S. and European security.
    We are reminded of the words of then NATO Supreme Allied Commander, 
General Philip Breedlove, who stated at a hearing of the U.S. House 
Armed Services Committee in February this year that Russia has chosen 
to be an adversary and imposes a long-term existential threat to the 
United States and to our European allies and partners. You can't get 
much clearer than that.
    Earlier this year, the CEEC sponsored a policy forum on NATO's 
stance on Russia on Capitol Hill. The major theme of the discussion 
characterized Russia's increasing aggression since 2008, not only in 
terms of fanning regional conflicts, but a fundamental assault on the 
post-World War II international order.
    And then the third point, the bigger picture. Russia's ongoing wars 
are of the greatest concern. I personally feel that the Putin and Assad 
regimes should be investigated for war crimes in their bombing 
campaigns in Syria. However, Moscow's crimes against Ukraine are also 
horrible and must not be ignored. Having Russian missiles deployed to 
Kaliningrad within striking distance of capitals in Poland, Germany, 
the Baltics and Belarus is very worrisome. Russia's actions have the 
potential to escalate into a wider European conflict. Our efforts to 
deter such threats now are critical. In addition, Russia's unrelenting 
disinformation campaign and other hybrid threats of destabilization put 
all of our allies at great peril.
    While the legislation to support military funding is finalized or 
being finalized, we must also remember to support efforts to stymie 
Russian disinformation, to support sanctions against the Putin regime, 
and also against individuals through the Global Magnitsky Act, and to 
support Ukraine, particularly now via H.R. 5094, the Stability and 
Democracy, or STAND, for Ukraine Act. This helps push for sanctions 
against Russia and supports Ukraine's territorial integrity, 
particularly the nonrecognition of Crimea's annexation.
    We look forward to working with all of you in the coming year to 
ensure the continued security, stability and well-being of the Baltic 
countries as NATO Allies and partners. And thank you for the 
opportunity to speak here today.
    Mr. Tiersky. Thanks very much, Karl.
    We'll now move to Mike Johnson.
    Mr. Johnson. All right. Good afternoon. Thank you very much for 
inviting me here today.
    The United States and the NATO alliance have adopted a dual-track 
strategy consisting of dialogue and deterrence with respect to Russia. 
But what exactly does that mean?
    For NATO to decide the next steps to take after the Warsaw summit, 
I think it's important that we understand the strategic implications of 
the operational vulnerability that still exists. NATO should try to 
cooperate with Russia to advance mutual interests where possible and 
avoid a zero-sum mindset of a new Cold War. Yet because the 
consequences of miscalculation, war and escalation would be enormous, 
NATO cannot afford a failure of deterrence. Therefore, NATO should not 
rest its collective security entirely on an assumption about Putin's 
intentions, hopes for more constructive cooperation or uncertain 
operational concepts.
    To inform U.S. and NATO decisions about defense strategy, 
deterrence and posture, RAND has conducted 24 wargames with 
representatives from all military services, U.S. commands in Europe and 
our European allies. Our aim was to provide a realistic assessment of 
NATO's military capabilities as well as the risks that policymakers 
have accepted with NATO's current posture and plans.
    To set the strategic context quickly, Russia has a long history of 
providing for its own security by occupying or dictating terms to its 
neighbors. Russia has invaded Estonia, Latvia and Lithuania multiple 
times and occupied these Baltic States for half of the last century. In 
2008, Putin sent Russian forces to Georgia to support the separatists, 
but he was also signaling all of Russia's neighbors that opposition to 
Moscow's interests could be punished by force. Putin's stated objective 
is to roll back NATO's influence from Russia's borders.
    Then Russia invaded Ukraine in 2014 and annexed Crimea. This was 
the first time military force was used to redraw the borders of a 
European state since World War II. This act of aggression sent a 
shockwave through Eastern Europe and Scandinavia. Will the Baltics be 
next? It seems unlikely, but in Crimea's wake the probability should no 
longer be considered zero. We should, therefore, evaluate Russia's 
military capabilities and the consequences of any potential conflict.
    Unlike Ukraine, the Baltic States are NATO Allies who sent their 
forces to fight with us in Afghanistan after 9/11. Consequently, 
President Obama assured them, with NATO you will never lose your 
independence again. Yet Mr. Putin responded to the President with a 
harsh assessment, quote, ``If I wanted, Russian troops could not only 
be in Kyiv in two days, but also in Riga, Vilnius and Tallinn, too.'' 
So who is right?
    We had competing predictions within RAND, so we designed a wargame 
to answer this question. Given NATO's current posture, can Russia seize 
the Baltic States in a rapid fait accompli, in a short-warning attack? 
Unlike debates about intentions, that's a testable hypothesis. Sixty 
hours or less, that's the longest it took any Russian player in the 
wargames to defeat NATO forces and surround the Baltic capitals. This 
was our consistent finding across 24 games in which the players were 
free to develop their own innovative concepts of air, land, sea, 
special and cyber operations. And should Russia seize the Baltic 
States, there are no good military options to reverse aggression by a 
great power with nuclear weapons.
    But it is possible to prevent a quick win at relatively modest cost 
if NATO has the political will. Here's how we arrived at this bottom 
line. Geography clearly favors Russia. Taking a look at Latvia, for 
example, it's only 135 miles from Pskov to Riga. There is simply not 
enough time and space for airpower to significantly delay or degrade 
Russian forces before they reach their objectives.
    The American supply chain is much longer and slower. The United 
States has only nine armored brigades left in the regular Army, fewer 
than the number of aircraft carriers, and all of them are permanently 
based in the United States. Russia's long-range surface-to-air 
missiles, submarines, and anti-ship missiles would make it too 
dangerous to deploy forces directly to the Baltics. This means U.S. 
forces would have to alert, mobilize, train, move by rail from fort to 
port, embark, move 5,000 miles by sea and disembark in channel ports, 
like Bremerhaven. This takes time.
    The second problem would be getting from Germany to the 
battlefield. The transport trucks, rail cars, ramps, bridges and other 
infrastructure necessary to move main battle tanks are insufficient, 
especially in Eastern Europe.
    The third problem is the thousand miles from the logistics hubs for 
fuel, ammunition, spare parts and medical services. These are still 
located in Germany, designed to sustain combat only 100 miles away 
during a Cold War. This means NATO forces would quickly run out of 
supplies.
    So given these relative distances and challenges, what forces can 
Russia and NATO quickly bring into battle? Even with the conflict in 
Ukraine and a 33 percent poor readiness rate, Russia has proven it can 
still generate 26-battalion tactical groups in their Western Military 
District on three to seven days' warning. Twenty-six battalions is not 
a very large force, as one commander said, it's not that the Russians 
are 10 feet tall again, they're only five-foot-five, but very fast. The 
problem is NATO is much smaller and slower by comparison.
    We assumed a best-case deployment of NATO's 2015 posture in the 
original wargame. On top of the three brigades that the Baltic States 
themselves would contribute, we assumed two U.S. airborne infantry 
brigades, one Stryker brigade and two NATO or European airborne 
brigades could deploy in time. Still, these light forces are 
outclassed. Russia would have 480 tanks on short warning, while NATO 
would have none that could deploy in time. The 1st Armored Brigade from 
the United States would need 30 to 45 days to arrive in Europe and be 
ready to fight.
    The situation with artillery would be even worse. NATO artillery 
would be significantly outnumbered, outranged and outgunned by Russia. 
These arrows give you a sense of the volume of fire that would fall on 
our light infantry because NATO lacks an effective response. The effect 
would be devastating. Again, it's not that U.S. and other European 
armored forces are not capable. It's just that they're not ready and 
they're not in the right place to respond rapidly. There is no U.S. 
Army in Europe anymore that can quickly ride to the rescue. There is no 
headquarters above brigade capable of planning and conducting 
operations, no aviation, fire or engineer brigades to support combat, 
no logistics capability to sustain that.
    Assuming Russia was our partner, we have either cut or brought back 
all of our armored forces to the United States. In fact, there are more 
police officers in New York City than there are American soldiers 
stationed in Europe today.
    What about airpower? We assumed maximum use of NATO airpower in the 
wargame. This included a Naval carrier battle group and access to 
airbases in Sweden, which avoid the air defenses in Kaliningrad. While 
Russia cannot equal our new fifth-generation aircraft, Russia can still 
generate 24 squadrons of fighters and eight squadrons of attack 
helicopters on short warning, or about one-third of their total air 
force. This is a qualitatively and quantitatively much different 
problem than the U.S. has faced in recent conflicts with regional 
powers, like Iraq, that have no capable air force and could launch only 
a few Scud missiles.
    But the even bigger threat to all of NATO's fourth-generation 
aircraft is the increasing range and accuracy of Russia's air defense 
network that exceeds NATO countermeasures. As one planner at U.S. Air 
Force Europe said, we have fifth-generation fighters, but we are still 
using missiles designed in the 1970s to suppress enemy air defenses; 
meanwhile, Russia has steadily modernized their systems to exceed our 
range. Thus, there would be a limited supply of strike sorties for 
interdiction and close-air support versus Russian ground forces in the 
opening weeks of any conflict. Due to the lack of sufficient aircover, 
U.S. Army forces would also suffer significant losses from enemy air 
attacks for the first time since the early days of World War II.
    Thus, Russia can achieve an overwhelming advantage in a short-
warning attack, overrun the Baltic defense forces and rapidly exploit 
[the situation] to surround the capitals. NATO light infantry in the 
Baltics would quickly become hostages, prisoners or casualties. Then 
Russia would have six months to prepare a deliberate defense, 
manipulate the risk of escalation to deter a counteroffensive, freeze 
the conflict and shift NATO's response to economic sanctions. Would 
Putin ever take this risk in the Baltics? Again, it appears unlikely. 
But historically, states have begun wars they believed would be quick.
    NATO's current strategy of assured response relies on a tripwire 
that would launch an automatic counteroffensive by the entire alliance 
to liberate the Baltics. This is essentially applying the Desert Storm 
model of reversing aggression by regional powers, like Iraq, to a great 
power with a large nuclear arsenal, like Russia. Yet many people do not 
fully appreciate the risks of reversing Russian aggression if 
deterrence fails. In fact, the American president and NATO leaders 
would be left with a terrible choice of really bad options.
    First, the consequences of war would be felt most immediately by 
the free people of the Baltic States if they choose to defend their 
freedom. Because their capitals would quickly come within range of 
Russian artillery, the Russians could do to Riga what they did to 
Grozny during the Chechen War. Current airstrikes against humanitarian 
convoys and civilians in Aleppo suggest the Russians would not be 
reluctant to destroy the Baltic capitals if they resist.
    Second, NATO could take at least six months to deploy armored 
forces and supplies from the United States and other NATO countries and 
threaten to launch a counteroffensive if Russia does not withdraw. But 
will policymakers really be willing to follow through with this threat? 
It's not that simple.
    First, attacking a prepared defense in-depth against the 
overwhelming Russian advantage in air defense and long-range fires 
would be bloody. The U.S. should expect to suffer more casualties in 
the first week of a war with Russia than during the last 15 years of 
war in Afghanistan, Iraq and Syria. And that's if the conflict remains 
conventional.
    Moscow will most likely threaten to use nuclear weapons if NATO 
launches a ground offensive, initiating the uncertain process of 
vertical escalation. Russia has already rattled the nuclear saber in 
Crimea and again in Syria, which has effectively curtailed American 
military options to support the opposition in Aleppo. Would NATO 
policymakers really be willing to risk Washington, London, Berlin and 
Paris? We haven't had to face hard questions like that for 25 years.
    Instead of launching World War III to recover sunk costs, 
policymakers might weigh the future benefits of liberating the Baltics 
against the enormous costs if the conflict spirals out of control. 
Thus, Putin may have doubts about NATO's political will to follow 
through, especially when NATO apparently lacks the will to prepare a 
credible defense in the first place.
    The third option is even less credible. NATO could return to the 
early Cold War strategy of massive retaliation and threaten a nuclear 
strike to prevent defeat. No one finds this option credible because of 
the obvious global catastrophic consequences that would ensue. Nuclear 
weapons have more utility as a deterrent nested within a strategy of 
flexible response by local conventional forces than as a threat to 
coerce Russia to withdraw its forces.
    If these risks proved too much for policymakers to accept, the last 
option would be to tacitly concede Russian control of the Baltic States 
and accept a new Iron Curtain in Europe. NATO would impose severe 
economic sanctions to be sure and try to rejuvenate the defeated 
alliance to defend Poland. But this strategic defeat can hardly be 
described as a good outcome, especially when it could be deterred at a 
relatively modest cost.
    To avoid these outcomes, NATO needs to put more time on the clock 
by preventing a Russian quick win followed by brinksmanship. Putin 
should see the realistic prospect of a much longer war with NATO that 
makes any potential gains not worth the costs of aggression. So how do 
we arrive at our recommended forces?
    We conducted a second iteration of the wargame with the players to 
determine the changes in NATO's defense posture necessary to prevent a 
quick win by Russia. We experimented with all different force sizes, 
types of units and new capabilities, like extended-range munitions, to 
suppress air defense networks. We also increased the size of the 
Russian invasion force to 55 battalions to constitute a more realistic 
stress test.
    Here's what we found. The best way to improve NATO's chances is to 
give it some armor. Specifically, we found that adding three armor 
brigades in addition to the four infantry brigades that can fight on 
short warning can change combat outcomes. If based in Europe, these 
mobile armored forces can delay the Russian advance and then fall back 
to defend the capitals. With pre-stocks of fuel and ammunition, they 
could hold out for two to four weeks. That buys more time for more NATO 
reinforcements to quickly come to their aid.
    To get counterattack forces there in time, the U.S. should add more 
pre-positioned equipment sets in Europe so we can quickly fly in 
personnel from the United States. Our European allies would also need 
to provide six to nine armor brigades to support a rapid counterattack 
as there is no unilateral American solution to this time-distance 
problem. This requires improving European readiness and infrastructure 
to move units quickly. And we've got to improve air-ground synergy, 
beginning with all services and countries working together to develop 
the capability to suppress air defense networks.
    If NATO takes these steps to add armor, expedite reinforcements and 
get more airpower in the fight faster, our wargames show that Russia 
could seize some territory, but they could not quickly seize the 
capitals in a knockout blow and would eventually lose a longer war with 
NATO. We're not suggesting a war-winning strategy to defeat Russia with 
minimum risk, which would be impossible. Rather, this is the minimum 
defensive force to remove any theory of quick victory that might tempt 
Putin to attack.
    So how much would it cost to restore credible deterrence in Europe? 
Policymakers should first realize that the costs of reinforcing 
deterrence pale in comparison to the enormous costs of war with Russia. 
The question is, where would the three armor brigades come from? We've 
outlined three options here with a rough order of magnitude cost 
estimate.
    First, DOD could grow three new armor brigades, a division 
headquarters and the support forces in Europe with all new equipment 
for 13 billion [dollars]. It would also cost 2.7 billion [dollars] to 
own and operate these forces in Europe every year thereafter. This 
would preserve a vital deterrent in Europe, even if the U.S. must 
respond to a crisis in Korea, for Mr. Putin is nothing if not 
opportunistic.
    The second option would be to grow three new armor brigades, but 
use existing equipment in the National Guard and in exchange for 
Strykers. This would save 9 billion (dollars) in costs of new 
procurement, but it could be difficult to implement.
    The third option would be to move three existing armor brigades in 
the active component to Europe. This would cost 716 million (dollars) 
to move and 216 million (dollars) in additional operating expenses in 
Europe.
    The administration and Congress decided on a fourth option to 
continuously rotate one armor brigade and establish a pre-positioned 
equipment set for a second armor brigade in Europe. This is a good 
first step which sends an important signal of American commitment to 
deter Russia. But our recent wargames have shown it's not enough to 
change combat outcomes or cross a new threshold of deterrence where 
NATO could prevent a rapid fait accompli. The cumulative rotational 
costs are more expensive than a one-time move, so the rotational 
brigade in the second equipment set are currently only being resourced 
at 50 percent strength. It's also not feasible for units to draw pre-
positioned equipment in time to defend on only seven to 10 days' 
warning. So there would only be 44 U.S. tanks opposite 680 Russian 
tanks on seven days' warning. Finally, the continuous turbulence would 
degrade military readiness given there are only nine armor brigades to 
meet three rotational requirements in Europe, Korea and Kuwait.
    At the June 2016 Warsaw summit, the NATO Allies agreed to rotate 
three battalions led by Britain, Canada and Germany, essentially 
matching the U.S. commitment to rotate a brigade in the region. This 
signals Russia that NATO will not be easily divided in the event of 
attack, which is an important signal. But policymakers should 
understand the realistic capabilities of a battalion which is not 
designed to fight alone. The military standard is a one-to-three ratio 
of defenders to attackers. The current three battalions of enhanced 
forward presence opposite 54 battalions in Russia's Western Military 
District is a one-to-18 ratio. That's not enough to defend, let alone 
present an offensive provocative threat to Russia.
    To put this in perspective, if NATO had applied the same standard 
during the Cold War, it would only have needed nine NATO battalions of 
enhanced forward presence on the inner German border to deter the 171 
Soviet battalions that were in East Germany. Obviously, NATO leaders 
rejected that ratio when Germany was at risk. After exhausting all 
other politically expedient, but military insufficient concepts of 
deterrence, NATO eventually fixed its forward posture to support 
forward defense and flexible response. The 2017 NATO summit in 
Brussels, therefore, should consider additional posture options to 
deter a war that must never be fought.
    Still, despite the lingering operational vulnerability and the 
uncertain deterrent, NATO has made important progress with first 
principles at Warsaw that should be acknowledged. NATO now recognizes 
Russia can present a serious challenge which will require serious 
leadership on both sides of the Atlantic. NATO has accepted it's not 
prudent to rest our collective security on assumptions of Putin's 
intentions. And NATO has committed, in principle, to move from 
assurance to credible deterrence. The incoming U.S. administration and 
Congress should do likewise and lead the Alliance in a dual-track 
strategy of seeking greater cooperation with Russia where possible, but 
strengthening credible deterrence as necessary.
    Thank you.
    Mr. Tiersky. I thank you very much for a fascinating presentation 
with, I think, very grave implications. I can see why your initial set 
of wargames had such impact leading up to the Warsaw summit.
     Magnus, we heard that Ukraine was a shockwave in Scandinavia as 
well. We heard about the use of Swedish airfields in the wargame. What 
of it? Talk to us a little bit about Nordic perspectives on this 
problem. Thank you.
    Mr. Nordenman. Sure. And, you know, thank you so much for having 
me. And thanks to the Commission for putting this together. And thank 
you all for coming today.
    I'm with the Atlantic Council. And obviously this region and this 
set of issues is incredibly important to the Atlantic Council. We've 
been watching and engaging with and working on regional issues almost 
for the last 10 years really, so sort of before the new ``bad old 
days'' happened. So it's an incredibly important region and certainly, 
I think, for all the reasons that Karl outlined previously today.
    But I would also say one of the reasons why we think this is 
important is because it's not only about Estonia, Latvia and Lithuania, 
it's actually about us, the United States. I don't think that Putin 
wants to rule Estonia again. What Putin wants to do is break NATO and 
sow doubt about American leadership in the world. So while the arena 
for this demonstration may be in Estonia or Lithuania or Latvia, it 
really is intended for us and it really is intended for other allies to 
see that the United States may not come to the aid of its allies. So 
that's why we feel very strongly about this and we're passionate about 
this region, because at the end of the day it's about the United States 
and U.S. leadership in the world.
    And before I go on, let me just sort of add my shout out to Mike 
and the team over at RAND and the work that they've done. I think it's 
absolutely fantastic. There's a formal public report out there. I would 
definitely pick it up if I were you.
    Earlier this year, I spent about two hours in Mike's office with 
coffee when we went over this. And professionally, it was the best two 
hours of the year. I learned a ton, so it's great work. And it truly 
has been very, very influential for the broader policy community 
thinking through these issues.
    What I wanted to do with my remarks is perhaps sort of broaden the 
lens a little bit and talk about the broader region and how the Baltic 
States fit in and how it, specifically, relates to security and defense 
of the Baltic States. And as some have already remarked, obviously a 
lot of the focus both here in Washington and at NATO over the last few 
years has been on the Baltic States and what is being done up front. 
With the battalions coming out of Warsaw, hybrid warfare, 
reinforcement, which is completely understandable, that's where the 
most immediate things needed to be done.
    But the Baltic States obviously exist in a broader context and 
exist in a broader region. And that broader region can also be brought 
to bear and brings opportunities and possibilities for the defense and 
security of the Baltic States. So that's what I want to spend my time 
on during my brief remarks.
    To the Baltic States' north you have Finland and across the Baltic 
Sea you have Sweden. They are not NATO members. It's an important 
distinction to point out they are not covered by NATO's Article V and 
collective defense. But they are incredibly close NATO partners and 
have been so for quite some time, with deployments in Afghanistan, in 
Libya and elsewhere. And obviously now in the new security context, 
they're important partners because they live in a region that's of 
importance to NATO because of the Baltic States and defense commitments 
that NATO has to those allies. So in this region we need to consider, 
how do Sweden and Finland fit in and what can they contribute in a 
crisis?
    Mike has already obviously discussed reinforcement options into the 
region, the use of airpower and so on and so forth. And due to sort of 
just sheer geography, there are things that Sweden and Finland can 
offer in terms of access routes and forward basing for NATO. Certainly 
Sweden, which sort of lies across the region, it is certainly nifty, if 
you will, if you can use that airspace and use that basing to get close 
in order for airpower and naval power to work in the region. And 
certainly both countries have signaled an interest to participate in 
the response to a crisis in the Baltic Sea region. And both countries 
are very much active participants in NATO exercises in the Baltic Sea 
region. And indeed, Sweden has actually passed what they call a 
``solidarity clause'' in their parliament, which means that they have 
actually officially declared they stand ready to lend assistance in 
case of a crisis in the region.
    But, of course, all these things are easier said than done. Just 
because we agree that this would be nifty and that we would like to do 
this in a crisis, that is far from enough. And you cannot make this up 
the day of the crisis or the evening before or the morning of. This 
will obviously require planning and arrangements with Sweden and 
Finland and how they figure in in a scenario where NATO is defending 
the Baltic States. You may want to pre-position equipment, you may want 
to pre-position ammunition and fuel and so on and so forth. And until 
that's done, there's very little that American and NATO planners can do 
with that potential opportunity for cooperation with Sweden and Finland 
as NATO partners. And we are not there yet.
    The U.S. very, very recently signed bilateral defense cooperation 
agreements--not defense agreements, but defense cooperation agreements 
with both Sweden and Finland, which speaks to joint exercises, 
capabilities, development and so on and so forth. But so far, that 
cooperation does not include hands-on planning--it's sort of, if you 
will, quiet conversations about who does what to whom in a crisis 
involving the Baltic States. So that is really the next step in order 
to make this partnership effective in a defense of the Baltic States 
scenario.
    But you also need to look at the other side of this coin, because 
just as that geography is useful for NATO and useful for a United 
States seeking to provide increased defense for the Baltic States or 
ratcheting up deterrence at the beginning of a crisis, it is obviously 
also geography that is important to Russia, which may leverage that in 
ways to stop NATO or make it tougher for a NATO or the United States to 
enter the region.
    We've all heard about Kaliningrad and the A2/AD, anti-access/area 
denial bubble or network that is developing in Kaliningrad. You can 
certainly take, say, the Gotland Islands which lie off of Sweden's east 
coast. And if you emplace air defense batteries there and combine that 
with Kaliningrad, you basically have air defense coverage across all of 
the Baltic Sea region. So just as that geography is important to NATO 
and the United States, it is, of course, important to Russia as well. 
So what does that mean for U.S., NATO, Swedish and Finnish cooperation? 
And what kind of scenarios do we need to consider?
    Another aspect to all this--and we've done some work in actually 
trying to look at the region as a whole, both other NATO countries, but 
also the NATO partners, Sweden and Finland, and what's actually there 
today. And obviously, Mike did a fantastic job sort of laying out what 
the defense of the Baltic States would require in terms of not only 
ground power, but aviation and naval assets and so on and so forth. And 
certainly a lot of these things will have to come from the United 
States and from other major NATO countries, such as a France and the 
U.K. and Germany. But when you start counting out the resources and the 
assets that are already in the region, it's actually not too shabby.
    The region actually has a pretty impressive array of airpower. The 
region is actually getting F-35s. Both Norway and Denmark are getting 
F-35s, the Finns operate F-18s, the Swedes operate Gripens, and Poland 
has a relatively new family of F-16s. And actually, there may be more 
F-35s coming into the region as well in the coming decades. And 
certainly Germany has a pretty impressive air force as well. So when 
you put all this together, actually just in the region itself there's 
something like 350 to 400 modern combat aircraft.
    Same thing with submarines. The Russians have Kilo submarines, a 
handful. But between the countries in the region, there's something 
like 12 submarines on the, if you will, the good-guy side. And there's 
even some long-range strike capabilities that are coming into the 
region. Both Poland and Finland have acquired JASSMs from the U.S. for 
long-range strike.
    So the trick here, I think, is, how do you make all this work 
together? And how do you coordinate this? And how do you ensure at a 
regional level, that you don't have sort of too much coverage in some 
assets and that you don't leave other gaps open that no one is thinking 
about because you're obviously doing national defense investment plans? 
I think there's an opportunity there to take regional stock in terms of 
capabilities and assets and try to orchestrate them for increased 
defense and deterrence in the region. And I think the U.S. certainly 
has a role to play here as a bit of a, if you will, orchestrator of 
regional capabilities and tying them together with U.S. capabilities.
    My point here is not that the region can take care of itself or 
should take care of itself. That's not my point. Defending the Baltic 
States is very much an all-of-NATO task. And providing that defensive 
deterrence is certainly also something that requires U.S. leadership as 
the major military power within the Alliance.
    However, if you look at not only the wargame that RAND has played, 
but also a number of other games that have been played here in town, 
one of the recurring issues is that the countries in the region will 
basically be the first responders. Right? And that's not so strange. 
They live there. The crisis is next door. If you think of the countries 
of the region in terms of sort of being the first response to a crisis 
with Russia, I think it would make sense to see more regional 
coordination and orchestration of capabilities.
    But let me say to emphasize so we don't have a misunderstanding, 
I'm not saying that the region should defend itself, but I say as a 
first response and as a base for the NATO response to rest on. So I 
think this really is the time to get to a lot of these issues and talk 
about them, not only here in Washington, but also in Brussels and in 
the allied capitals.
    And I think it's already been mentioned a couple of times, I agree 
that the decisions about battalions in the Baltic States and also in 
Poland coming out of Warsaw were great decisions and certainly a place 
to start working. But obviously, so much more is needed. And this will 
require a long-term effort and a long-term strategy.
    Mike certainly described some of the things that could be done. But 
also I think we need to talk about regional air defense for the Baltic 
States and obviously reinforcement arrangements and what's needed, even 
down to railroads and hangar space and ramp space, and the little sort 
of things that sort of prove to be the devil in the details, but which 
become important in all this.
    My final point to all of this--I want to pull back perhaps a bit 
more and sort of consider the new political environment that we all 
find ourselves in with the election--I think this will require a new 
focus on NATO as a two-lane road. This truly cannot be sustained, I 
think, if this is only about what the U.S. is doing for the Europeans. 
I think we also need to have a dialogue about what the Europeans offer 
the United States, not only in Europe, but also globally, and all the 
different security priorities that the United States is working on. 
That is a tough issue for small countries, like the Baltic States, 
which, again, are, in terms of spending, they are some of the best in 
class and they certainly take their defense and their security very 
seriously. But as we all know, they are small states.
    But I do think that there are opportunities for countries like 
Estonia, Latvia and Lithuania, to show their support and find niches 
where they are relevant and can make meaningful contributions to U.S. 
security priorities in other parts of the world.
    So with that I'll end.
    Mr. Rauland. Thank you, Magnus, for your presentation, and Michael 
and Karl, for yours. These are really an excellent basis for us to 
begin further discussions on this very important topic.
    We'd now like to turn to the question-and-answer portion of our 
briefing. And I am going to first selfishly use my position here to 
weigh in with the first question. This month marks 25 years since the 
fall of the U.S.S.R., and our panelists have done a good job of 
pointing out how difficult it still is today dealing with the 
consequences of that monumental event. There are a number of things 
driving Russian aggressive behavior in the region. One of them 
certainly is the sense that NATO expansion to the territory of the 
former U.S.S.R.--that is, the Baltics--was a bridge too far.
    My question for you is, in addition to the moves the Baltics and 
NATO need to make to provide credible deterrence--and you've touched on 
a number of them this afternoon--I'd like to ask you to comment on what 
needs to be done to address the Russian view that NATO expansion has 
gone too far, and to counter the sometimes virulent Russian 
disinformation that is often linked to that.
    Mr. Johnson. I'll take a first start at that. I think it's 
important to understand the Russian perspective on strategy and 
security. But you can approach that on the basis that you could get to 
mutual defense and mutual deterrence as well.
    The rhetoric surrounding the three battalions, which are commanded 
by a lieutenant colonel, have a captain for an intelligence officer, 
have a mortar platoon with an eight-kilometer range, and are outclassed 
by Russian rockets with a 90-kilometer range, a support platoon that 
can resupply about 10 kilometers, not the thousand miles back to 
Germany, that does not represent an offensive threat to Russia. And the 
Russian general staff knows it, despite what they say. So I don't think 
we have to let Russia define anything it wants as provocative and 
exercise a veto over NATO defense strategy to establish a minimum 
defensive deterrent that doesn't present an operational threat to 
Russia. And I think we should proceed with that.
    Mr. Altau. Just going down the line I'll add onto that--that Russia 
knows it, and Russia needs us. Russia needs the West. Russia needs the 
European Union for their markets. And all the countries in between. So 
by beginning to destroy that relationship, relationships with its 
neighbors and any trust or cooperation, Russia only undermines itself, 
simple as that.
    Mr. Nordenman. I'm in broad agreement with both men. The one thing 
I would add, and again, I would agree that it's important to understand 
the Russian perspective and where they're coming from. And I think in 
the Baltic Sea region it's not rocket science to realize that obviously 
the Baltic Sea region is incredibly important to Russia. That's their 
outlet for exports to Europe. It's a major outlet for gas supplies. St. 
Petersburg is a big harbor. And actually, for the Russian navy, the 
Baltic Sea itself is actually an important sort of test and trial space 
for their navy. And obviously, all of those are perfectly legitimate 
national interests, right? Trade, free passage and so on and so forth. 
I think we can all agree that those are for any state, anywhere, 
perfectly understandable and legitimate interests.
    But on the other hand, I think what they are doing in the region 
completely overshoots trying to guard those normal national interests 
that you would have in the region. On the one hand, let's tip our hat 
to the legitimate national interests that Russia has, along with any 
other state, but let's call them out for when they go way beyond 
guarding those legitimate national interests.
    Mr. Rauland. Thank you. I'd like to turn next to representatives we 
have here from the three Baltic embassies. I think it is important 
during this session today to hear your views on this and give you a 
chance to address the panel.
    Then we'll get to the general audience with any questions you have.
    Do we have volunteers from any of the three Baltic embassies? 
Please, I'll give you the first crack at this. And if all of you as you 
come up could tell us who you are and who you represent or who you work 
for when you come up and speak. Thank you.
    Questioner. Thank you. I'm Marki Tihhonova-Kreek, the Deputy Chief 
of Mission from the Embassy of Estonia.
    Thank you to all the panelists and the whole Helsinki Commission 
for your work done in this area and for that very timely analysis, the 
in-depth remarks, and also examples which very well describe the 
situation in our region.
    A couple of points that I would like to make on the security 
environment in Europe, especially on the eastern flank of NATO. First, 
I'm very glad that Michael has pointed out the necessity to continue to 
make meaningful contributions from Europe. What I would like to point 
out is that we do take defense seriously in Estonia and in all the 
three Baltic countries. To prove that, next year Estonia will spend 2.2 
percent of its GDP on defense. On top of it comes our host nation 
support. So I'm confident that we can deliver on what is expected from 
us. Likewise, also Latvia and Lithuania have committed themselves to 
raise their defense spending.
    In addition to defense spending, we have been active contributors 
in terms of international military operations. We have been very active 
in cybersecurity in global terms. So, again, like Michael has pointed 
out, we have to find our niches as contributors. And cybersecurity, 
when it comes to Estonia, is definitely one of those niches. So again, 
we do take our defense seriously.
    At the same time, I think it is very important that when it comes 
to defense, burden-sharing is important. We have to match the means to 
the ends and align talking to resources. So it's very timely for all of 
Europe to face its obligations regarding this defense spending. The 
timing is very good to have serious discussions within Europe in this 
area.
    My second point, Europe has its own discussions going on right now 
to shape and strengthen its security environment. At the same time, I 
would like to reiterate that a U.S. element in guaranteeing Europe's 
security is absolutely vital and is indispensable. Without U.S. 
support, the concept of Europe, whole, free and at peace, is shaking. 
No matter how much we spend on defense or how often we do exercises, we 
do need strong and credible deterrence measures by NATO and also strong 
U.S. bilateral support. So we are very, very grateful for U.S. support 
through ERI in that respect. NATO Warsaw Summit decisions were very 
good, now they need to be implemented. And like it was pointed out by 
some of you, we need to continue these discussions also during our next 
NATO summit which will hopefully take place soon.
    And my third point is that I very much welcome the intensified 
cooperation of the EU and NATO on defense matters. This is another 
example to prove that there is never too much when it comes to defense 
and where we can cooperate. And in that respect, I welcome very much 
the NATO foreign ministers' decisions which were made recently on 
concrete measures to be taken when it comes to EU and NATO cooperation.
    Thank you.
    Mr. Rauland. Thank you very much.
    Do we have representatives from the other two embassies, please?
    Questioner. Well, thank you very much. My name is Ilmars Breidaks, 
I am Deputy Chief of Mission at the Embassy of Latvia. Again, thank you 
to the Commission for this meeting. And my Estonian colleague already 
spoke on the very important issues where we fully concur, as on defense 
and security matters. Our narrative is very similar.
    But nevertheless, I will also add some points. We believe that 
Latvia and the Baltic States are defensible. We believe in deterrence, 
in deterrence which expresses collective and unified action as a 
response to the challenges in Europe and in the Baltic region. We are 
happy with NATO decisions taken in the Warsaw Summit regarding forward 
enhanced presence. And we are thankful to the U.S. for the great 
leadership in strengthening defense of our region and in responding to 
the challenges which were raised after Russian interference in Ukraine.
    We are definitely looking forward to U.S. continuous leadership, as 
my Estonian colleague just mentioned, and further implementation of ERI 
in the future. I would also like to add here that we are thankful to 
those NATO countries, like Canada, which has taken leadership in 
building a multinational battalion, a NATO battalion, and leading in 
Latvia, which will be operational next year.
    Having said that, we are not complacent. We certainly recognize the 
challenges. And we ourselves, we keep our vigilance, if I may say so, 
on a high level. We do our homework. We will have increased our defense 
spending by 30 percent next year. We will reach 2 percent in 2018. 
These decisions are supported by all main political parties in Latvia. 
And the budget was approved, like, three weeks ago and there were no 
discussions about the necessity to strengthen defense and to contribute 
more to, first of all, our defense, but also to contribute to the 
stability of Europe and transatlantic relations, which we will do 
through our continuous support of NATO and also U.S.-led operations in 
countries like Afghanistan. And we will contribute further also in Iraq 
and other operations.
    Having said that, once again, thank you very much to the 
Commission, I am looking forward to a discussion.
    And if I may, just one comment about a very good point which you 
raised about the role of disinformation which we have witnessed for the 
at least last two, three years in earnest. I think it's fair to say 
that it is important to recognize that we are challenged with concerted 
steps by one country to undermine some of the things, but the most 
important, I think, are values which we believe in. And to undermine 
that, these concerted steps, we feel that we should first recognize it 
for what it is. These are actions to hurt us. And in this regard, we 
should make collective, unified efforts to counter that.
    Thank you.
    Mr. Rauland. Thank you very much. And finally, a representative 
from the Embassy of Lithuania.
    Questioner. Hello. I'm Evelina Petrone, I'm the Political Officer 
from the Embassy of Lithuania. We have a delegation of parliamentarians 
who came here with the same goal to speak about our security and 
defense, so my ambassador and DCM are with the delegation.
    Thank you very much for this session. I think it's very, very 
important. And having it at the Helsinki Commission, it's a very timely 
discussion. I agree with my colleagues from the Estonian and Latvian 
embassies and what they said.
    Just brief points. Lithuania is taking its commitments very 
seriously. We are trying to increase our defense spending commitment to 
2 percent. We had it at 0.79 [percent] two years ago, which is very 
low. We know that. We're increasing it fast. We came back to the 
obligatory conscription. We have obligatory conscription which we do 
not need because we have enough volunteers. People take this problem 
very seriously, as you can see.
    And we are grateful to the United States and NATO for commitments, 
but as it was rightly pointed out it's about NATO's will. And I think 
we all understand here that it's not some theoretical or hypothetical 
threat. It's a real one. So, having said that, I think we can agree now 
we have to do something about that, not just to talk about it. So 
hopefully we'll come up with some ideas and some actions.
    We had our parliamentary elections. We have a new government in 
place. All parties, minority and majority, understand that it's a real 
threat. And we have an agreement of all parties to continue doing 
something very well with that.
    Having said that, another thing is the unity which was already 
mentioned, that Putin most probably doesn't want to rule Estonia, 
Latvia or Lithuania, but he wants to have this hot spot or he wants to 
break the unity and to challenge democracy, which he is already doing 
unfortunately. So this is the challenge we have to face and to do 
something with that.
    Thank you.
    Mr. Rauland. Thank you. We appreciate the time that all three of 
you took to be here with us today and to share your views on this 
important topic.
    And now the floor is completely wide open to anybody who would like 
to ask a question of our panel here. Again, if you can raise your hand 
I'll recognize you.
    Please.
    Questioner. Hi, my name is Kathleen Weinberger. I'm with the 
Institute for the Study of War. Thank you all so much for speaking with 
us today.
    My question is about the naval aspect of Baltic security. Most 
recommendations that I've seen have focused on ground forces and 
combating Russian air defenses. But Russia has very overtly started 
boosting its own naval capability in the Baltic Sea region. They have 
two new Corvettes armed with Kalibr cruise missiles. They completely 
overhauled the officer leadership of the fleet. And in addition, they 
recently deployed anti-ship Bastion systems into Kaliningrad.
    And so my question is a two-part question. A, how important is it 
for NATO and NATO partners to counter this with our own naval 
capabilities? And then, B, what would that response look like? Thank 
you.
    Mr. Nordenman. So I'll jump on this one first. I think your 
observations are correct, but I also think it's important to sort of 
put it in a broader, if you will, sort of Russian naval context. Russia 
has four major fleets, the Northern, Baltic, Black Sea and the Pacific. 
Of those, the one that is sort of, if you will, the power projection 
fleet and the nuclear deterrence fleet, that is the Northern fleet up 
in the high north with access to the Atlantic.
    In comparison, the Baltic Sea fleet is not going anywhere. It's 
intended for the Baltic Sea and, in that sense, forms part of Russia's 
anti-access/area denial system or network, if you will. It's there to 
make it harder for other people to operate in the Baltic Sea region. 
And obviously in this context, it's about frustrating reinforcements. 
It's about holding reinforcements and NATO naval capabilities at risk.
    In comparison, it is still one of the fleets in Russia that gets 
the least amount of resources. Again, most of it goes into the Northern 
fleet, but certainly they have gotten some new capabilities, and, 
again, frigates with Kalibr missiles and so forth. But just to put it 
in comparison to other things that the Russians are doing with their 
naval capabilities.
    In my mind, the counter is submarines actually. The Baltic Sea is 
actually very small. And with long-range systems today, I actually 
think, in a war situation, the Baltic Sea would be a dead sea, nothing 
would be sailing on the surface because you can hit it from the sea and 
submarines can get you, too. So the counter, in my mind, is submarines 
on the NATO side. Where, again, as I said, there actually are some 
capabilities there. The Germans have a pretty good submarine force. The 
Swedes have a good submarine force. And the Poles are looking at 
recapitalizing their force as well, so the subsurface environment.
    And this is one area where the U.S. actually has less to offer. 
Obviously, the U.S. operates big nuclear attack submarines. And the 
Baltic Sea is actually too small and shallow for them to effectively 
operate in there. So this is one area where actually the European 
contributions may be more important than the American ones.
    A final point on all this, mines and countermines, again, in terms 
of anti-access and area denial is the use of Russian mines to frustrate 
reinforcements, so, therefore, the ability to quickly clear mines to 
keep the sea lanes open. And on that note, this is one niche, by the 
way, where the Baltic States have cut a pretty impressive figure as 
something that they contribute. They all have done a lot of hard work 
on building up capabilities for mine clearing and UXO clearing in the 
Baltic.
    Mr. Johnson. All right, good question. We did have players from the 
Navy staff and from U.S. Navy Europe in some of our games as well as 
allies in Europe. We've conducted several games over there with the 
naval dimension. I would agree with Magnus that you have a condition 
of, you know, both sides can deny access to the large surface vessels 
in the Baltic Sea. Some of the additional things beyond what Magnus 
mentioned that I think would be helpful is the Navy, too, has SEAD--
suppression of enemy air defense--capabilities;they need to work on a 
long-range anti-radiation missile to be able to neutralize the SA-21s 
that have between a 250, 400-kilometer range.
    There's also long-range anti-ship missiles to get the maritime. 
They have Corvettes where they could try to put SAMs on top of that. 
It's not exactly clear if it will work well or not. But if it does, 
that could interdict the maritime air avenue approach coming out of 
Sweden, which would be a significant problem for the close-air support 
and interdiction for ground forces.
    Along with that, this is something else where allies could help us, 
to be able to deny Russia the ability to seize islands and emplace SA-
21 capabilities on those islands. That would be important, although 
that's one of a number of things that need to happen. We'd have to be 
able to target Russian long-range anti-ship missiles as well, and then 
the countermine capability that Magnus mentioned.
    Mr. Rauland. Thank you. Alex, over to you for a question.
    Mr. Tiersky. Thanks. I'm going to throw a quick raft for maybe a 
few quick hits from our panelists, if that would be OK.
    To Mike, I'd like to get you in this forum publicly to respond to 
the question of Russian intent. The question floats out there: Why 
would Russia invade the Baltics when all they would have to do is 
undermine them through measures short of war? And to what extent would 
the additional military deployments that you recommend be responsive to 
threats short of an all-out invasion?
    To Karl, or any on the panel really who might like to respond, I'd 
like to hear a little bit more about domestic efforts by the Baltics in 
terms of their national resilience. I understand we've heard the point 
repeatedly about increased defense spending. That point is well 
registered. But what about improvements to infrastructure? We've heard 
infrastructure is extraordinarily important in these scenarios.
    And to Magnus--again, please, just quick hits--to Magnus, you 
talked specifically about Sweden, and I'd like your thoughts on the 
extent to which Russian rhetoric can impact the political will of those 
states, in particular to play the significant roles that the Baltic 
States would like to see them play in a contingency. Put differently, 
do they fear becoming targets?
    Thank you.
    Mr. Johnson. That's a great question. And there's certainly a 
healthy debate in the community about that. There are two basic 
approaches to defense planning. One is to try to make predictions of 
adversary intentions and to build a force specifically tailored to 
counter that. And the other, which we recommend, is where you have a 
vital region with U.S. vital interests, where there's an adversary 
pursuing a strategy that runs contrary to our objectives and we have 
the capability to inflict a high consequence event, that's enough for a 
plausible standard for prudent defense planning that exists in other 
theaters, you know, with respect to China, with respect to North Korea 
and Iran. There's no reason not to apply that same prudent standard for 
defense planning to the Baltics, especially when our predictions went 
wrong.
    There's still a wide range of op-eds, I think, trying to explain 
Putin's behavior, running from he has Asperger's to he's a strategic 
genius, so I think our ability to stay ahead of him and his next move 
is we ought to approach that with a degree of humility, especially 
when, again, it's a high-consequence event. I can't think of a scenario 
that's more likely or with more potential to involve the United States 
in a nuclear war, in the second nuclear age, than a miscalculation out 
of NATO security in the Baltic States. So it is serious for us, not 
just the Baltic States.
    But in terms of Russian motives in the Baltics, I'll answer the 
question directly, even though I'm skeptical of being able to ascribe 
intentions. There's just the ability to militarily and strategically 
restore a buffer zone, and to roll back NATO influence from their 
borders. Their recent defense strategy has articulated NATO 
infrastructure on their borders as a threat to Russian national 
security, so that's articulated. There could also be domestic reasons 
as a diversion from potential unrest.
    Mr. Altau. On the second point about the domestic efforts in the 
Baltics, certainly the representatives from the Baltic embassies could 
address those very thoroughly here today. But let's say very briefly, 
the Lithuanian representative did mention conscription on Lithuania, 
that that has been a recent change in that country to address this 
situation. Estonia has had conscription for a long time. So the work of 
the National Guard, let's say, also has seen an increase in 
volunteerism, we heard. There were more people volunteering to go out 
and train and to take that responsibility. So that's been definitely a 
big thing.
    I really can't talk too much about the domestic military efforts in 
too much detail. But Magnus did talk about the niche capabilities. And 
again, I reiterate that in the Baltics each country has done something 
to address a particular situation, but an overall issue that is very 
important to NATO as well and to the United States. So Estonia, when it 
was cyberattacked by Russia, at that time was developing a NATO Cyber 
Center of Excellence which has now been operational for quite a while, 
for almost 10 years, I think. The Lithuanians, as you may remember, a 
few years ago opened an offshore LNG, a floating terminal, so they've 
been very keen on energy security aspects. So they have a NATO Center 
of Excellence for energy security. And just like the Latvians, who 
suffer also, as do all three of the Baltic countries, from repeated 
disinformation attacks, sustained propaganda campaigns, subtle and not 
so subtle, so the Latvians have set up a NATO Strategic Center for 
Strategic Communications to address all these threats.
    Mr. Nordenman. I'll be very quick. On the first question, I think 
both the Swedes and the Finns are convinced that a crisis over the 
Baltic States would directly impact them and that there's no way of 
getting around that and would very, very likely involve them one way or 
another. But obviously, the particular route or trajectory of a crisis 
is, of course, hard to predict.
    On your second question, and again, now we're completely 
speculating here, but I don't have a hard time imagining that in a 
crisis over the Baltic States where Russia certainly would go to a 
Helsinki and a Stockholm with a very sharp message of, ``do yourself 
and everyone else a favor and stay out of this, the big boys are 
playing,'' so obviously both Stockholm and Helsinki would, in a crisis, 
face very, very difficult questions and very, very difficult choices. 
And I don't think they're difficult because they're Stockholm and 
Helsinki. I think they're difficult because we're talking about two 
relatively small countries who will have to deal with an aggressive and 
assertive major power.
    Mr. Rauland. Thank you. We have time for a few more questions, if 
any of you still have things on your mind you'd like to address to the 
panel, please.
    Questioner. Good afternoon. My name is Pirak Cusick [ph]. I'm a 
graduate student focusing on European security. And as a proud 
Estonian, I will thank the U.S. continuous commitment in the region.
    We haven't talked much about diplomatic relations. General 
Breedlove just months ago said that we need a constructive discussion 
with Russia. And thus I would ask, do you see that happening anytime 
soon? If yes, what would be the potential talking points and what role 
will the Baltics and also Sweden and Finland play in these discussions?
    Thank you.
    Mr. Nordenman. Sure. I guess I can start. This will likely be an 
unsatisfying answer, if you will. When you're talking about sort of 
diplomatic dialogue, I certainly think there is certainly room to do 
some things to lower tensions and make sure that mistakes are avoided. 
So in terms of behavior in the airspace, behavior in the maritime space 
and so on and so forth and your hot lines and so on, and we certainly 
did that during the Cold War and we certainly have developed that with 
the Chinese today. And that is obviously a way to avoid incidents 
escalating into war.
    More broadly speaking, I don't think this is a good time to reset 
the relationship or make arrangements. I'm pretty sure I know what 
Putin wants out of us, but actually I'm not very sure that he has much 
to offer us on the other end. So I have a hard time seeing a major 
dialogue, but certainly opportunities in order to avoid 
misunderstandings, to avoid confrontation and to avoid accidents. And 
that's certainly a very, very needed and urgent conversation to have 
with the Russians.
    Mr. Johnson. It's a good question. Like Magnus, I think we should 
keep the lines of communication open. The dialogue is important, not 
only for regional security in Europe, but on the range of political 
challenges that we both face. There may be potential for cooperation in 
other regions.
    I think, though, that the Russians approach it from more of a 
transactional perspective rather than a firm belief and support for a 
liberal democratic international order. And so the question would be, 
what's the quid pro quo to get that cooperation versus ISIS or other 
challenges that are out there? I personally don't think that the West, 
that NATO should trade credible deterrence of NATO Allies in hopes of 
gaining cooperation elsewhere. That strikes me as a rather bad deal to 
ratify aggression and leave allies vulnerable so that we can help 
Russia fight its enemies in Syria and occupy its position there. I 
don't see how that's a good trade for the U.S. or for NATO or the 
international order.
    Mr. Rauland. Any other questions?
    Questioner. Hello. And thanks to the Helsinki Commission for 
convening this timely meeting. My name is Petyo Varbanov from the 
Embassy of Bulgaria. I'm a political officer at the embassy.
    I would like to expand a little bit more on the previous question 
vis-a-vis the U.S. policy toward Russia and the new incoming Trump 
Administration. The current Congress was quite critical, especially 
from the Republican Party, of President Obama, and there were 
accusations that the Obama administration was too soft, et cetera, et 
cetera.
    So I was wondering, now the Republican Party controls both houses, 
the House and the Senate, and there is a Republican President soon in 
the White House, I was wondering what role Congress might have in 
shaping the foreign and security policy of the Trump Administration? 
And how do you square this with the indications for eventual 
rapprochement with Russia?
    Mr. Johnson. I'll take it first. I'm reluctant to engage in 
military and strategic speculation, and that's actually my field; I'm 
even less inclined to engage in political speculation about what the 
new administration will do. I would just say that Congress as a coequal 
branch of government has responsibility for foreign policy and defense 
planning as well.
    Mr. Altau. Well, I don't know whether to give the long answer or 
the short answer. But this is the short one, because we could talk all 
day about this, the role of Congress. And I think that Congress does 
have an extremely important role as the new administration is coming 
in. I think that as whether a counterbalance to a Republican 
administration or with working across the aisle to balance legislation 
and policies, I can imagine that being of serious consideration next 
year, for the next couple of years.
    And as some people look ahead to the next elections already and the 
mid-term elections and what the effects will be of what will come up in 
the meantime, and then also you have to keep in mind elections 
elsewhere across Europe and France, for instance, in the spring, and 
how the U.S. Congress will respond to those. The relations that 
Congress has with the countries of Europe, the transatlantic 
relationship is very, very important.
     I know that for the Baltic-American communities, we work with a 
broader group of members in the House Baltic Caucus. And there's a 
Senate caucus as well. And there are people in Congress, and not just 
in the caucuses, but in the committees who are, I think, very pragmatic 
and very realistic about their approaches in dealing with Russia. So 
we've already seen that by the indications that, for instance, Senator 
McCain will be holding hearings on Russia early next year, Senator 
Graham, of course, and a number of members in the House as well, so 
there's opportunity, certainly.
    Mr. Rauland. I think we have time for at least one more question. 
Are there any other questions out there? Please.
    Questioner. Hi. I'm Beni Kovacs. I'm an intern here at the U.S. 
Helsinki Commission.
     I have a question about what was said earlier about how U.S.-
Baltic relations should be mutually reinforcing. My question is, number 
one, how can the Baltic States facilitate U.S. support, rotational 
forces in the region in terms of infrastructure, rules of engagement or 
strategy?
    And additionally, Mr. Nordenman mentioned these niche areas where 
the Baltic States can be contributing to U.S. and global security. What 
are these areas and how do you think the Baltic States can move forward 
in this respect?
    Thanks.
    Mr. Johnson. That's a great question. I'd like to just begin by 
acknowledging the Baltic commitment to our collective security, the 
increasing commitment as well. I served with Baltic forces in 
Afghanistan and Iraq. They fought without caveats. And one told me, 
``We will fight and die with you here in Afghanistan so that you will 
help defend us should the need arise.''
    But I think it's still important to keep this in perspective. They 
have the combined population of, I think, Maryland, the combined GDP of 
New Mexico. It's not realistic to expect that the Baltic States 
themselves will provide NATO's land army in a major conflict with 
Russia. That would just exceed any realistic capabilities. Even if they 
match Russia at 4 percent defense spending per GDP, collectively that's 
still only $8 billion which is not enough to buy three armor brigades, 
OK? So we have to be realistic.
    That being said, there's a lot of things that they could do and are 
doing in terms of making their countries more resilient, more difficult 
to occupy, things to slow down the Russian advance, be able to extend 
Russian security requirements. And you could implement and integrate 
that within a more comprehensive NATO general defense plan in which 
that would provide some valuable operational contributions.
    Mr. Nordenman. I'll just make one quick point about niche 
capabilities. I think actually all of the countries in the Baltic 
region have sort of clear niche areas where they've cut a figure and 
are recognized experts. Certainly cyber in Estonia has already been 
mentioned. Also clearing of sea mines. Another one actually, fun 
factoid for today, Lithuania has the largest special operations 
community as a proportion of the overall force of any NATO country. So 
that has become a niche for Lithuania. And obviously that is a tough 
skillset to build and maintain. And obviously, cyber is globally 
applicable, special forces, you know, globally applicable; mine-
clearing is certainly something that we would like to do potentially in 
the Gulf and other places. So those are niches that can play beyond the 
region.
    I'll just end with sort of an anecdote when it comes to our 
commitment to defense. We had a visiting fellow from the Marine Corps 
last year who really got into Baltic issues. And he went to the region 
and he wrote on defensibility of the Baltic States and deterrence and 
reinforcement. And he sort of ate and lived Baltic defense.
    And at one point, at the water cooler, I said, ``John, you're a 
Marine Corps officer, you've served around the world, you've been to 
the Middle East a bunch of different tours and you've trained Afghan 
security forces and Iraqi security forces. So of all the different 
things that you could be doing, why did you get so excited and why are 
you so passionate about the Baltic States and Baltic defense?'' And he 
came back and he said, ``Because these people give a damn!'' and that's 
why he thought this was exciting and that's why he wanted to work on 
it, because he thought that these were allies and partners that gave a 
damn about their own security and their own defense.
    Mr. Rauland. That's a very good note to end on.
    Well, let me thank all of you--the audience for your interest, for 
attending, for some very good questions today, and our panel for some 
excellent presentations and good answers to all the questions that were 
offered up.
    Most of you may know this, but for anybody who doesn't, the 
Helsinki Commission always posts unofficial transcripts of these 
sessions. Those will be at our website hopefully by tomorrow. And in 
case you don't know what the website is, it's www.csce.gov; CSCE stands 
for the formal name of the Helsinki Commission, the Commission on 
Security and Cooperation in Europe.
    So thank you once again and have a great evening.
    [Whereupon, at 3:37 p.m., the briefing ended.]








                                  A P P E N D I X

=======================================================================


                 Prepared Statement of Karl Altau

    My name is Karl Altau, and I'm the Managing Director of the Joint 
Baltic American National Committee, Inc., known also by our acronym 
JBANC. JBANC represents the primary Baltic-American National 
organizations--the American Latvian Association, the Estonian American 
National Council, and the Lithuanian American Council. We were founded 
in 1961 and are celebrating our 55th anniversary this year.
    We represent one million Baltic-Americans and have worked closely 
with Congress, the Administration and its agencies in that half century 
to enhance United States policy towards Estonia, Latvia, and Lithuania.
    I'd like to thank the Commission on Security and Cooperation in 
Europe [Helsinki Commission] for hosting this very important and timely 
briefing focusing on Security and the Baltic countries. We've worked 
very closely with the Commission on supporting the passage of the 
Belarus Democracy Reauthorization Act and the Magnitsky legislation. We 
are also supporting our Ukrainian friends in their time of need.
    Today, however, we need to get back to our Baltic roots, and talk 
about the new reality of deterring Russian aggression and dealing with 
the increasing provocations of Moscow. There haven't really been any 
Baltic-focused public briefings or hearings for a long time, mainly 
because the region has been a positive model and success story. Today's 
briefing coincides with a coordinated visit of Baltic parliamentarians 
to Washington, and to Congress. I'd like to acknowledge some of my 
Baltic-American colleagues and Baltic embassy representatives who are 
here today, along with board members of the Baltic American Freedom 
Foundation, an organization doing great work in providing practical 
work experience in the United States for young professionals from 
Estonia, Latvia, and Lithuania.
    The Baltics have been doing their job--particularly as NATO Allies 
since their admission to NATO in 2004. Estonia, Latvia, and Lithuania 
have been eager and active partners in NATO and with the United States. 
We see these positive relationships mirrored here in the United States 
daily.
    In the past, we fought for decades to help raise awareness about 
the Baltic countries and their plight behind the Iron Curtain and to 
help see the countries of our heritage restore independence. It can't 
be repeated enough--one of the key elements for the duration of that 
time was the Welles Declaration, the U.S. policy to not recognize the 
Soviet annexation of the Baltic countries. It was a principled and 
morally correct policy that stood for 50 years.
    The Baltic-American communities worked very hard to support the 
aspirations of Estonia, Latvia, and Lithuania to become NATO members. 
One of the high points was collecting over 25,000 signatures from all 
50 states, plus Washington, DC and Puerto Rico, in a yearlong campaign 
to ask the President to help ensure that the Baltics are invited to 
join NATO at the 2002 Prague Summit. Baltic-American representatives 
across the country came to the White House on September 10, 2001, to 
deliver those petitions. The results of seeing Estonia, Latvia, and 
Lithuania join the Alliance was something we all took great pride and 
joy in. We are grateful that they have punched above their weight, and 
that they remain strong adherents of Alliance principles. Estonia, 
Latvia, and Lithuania are active and capable contributors to our joint 
defense and defenders of Western standards and democracy.
    We've all heard the phrase that ``freedom is not free.'' It is 
something to constantly improve upon, with many tweaks along the way. 
We don't want to see those freedoms, Western values, and the framework 
of the relationship with NATO jeopardized. However, with Russia's 
revanchist aggression, we are now experiencing the most difficult 
challenges we have faced in the 25 years of restored independence.
    There have been difficult times before with Russia's offensive 
actions--from energy cutoffs in Lithuania, the 2007 cyberattacks 
against Estonia, continuing disinformation campaigns targeting Latvia. 
Russia's war against Georgia in 2008 was more than an omen. The 
Kremlin's calculations, it appeared, led down a rocky road which 
eventually manifested again with the events in Ukraine. Soon, there 
will be three years of war there--with daily bloodshed and no end in 
sight. Crimea is occupied, and the info wars have ramped up to new 
heights. Have we done everything to counter this aggression?
    Has NATO met the challenges? While we saw some issues incrementally 
addressed at previous Summits in Chicago in 2012 and Wales in 2014, the 
response from this summer's Warsaw Summit was certainly a more serious 
adjustment of priorities. There, NATO stated it was fully prepared to 
defend the alliance and pledged an increase in military spending in 
response to Russia's unpredictable and aggressive behavior in the 
region.
    I'm sure the other two panelists will give a closer look at the 
details and how these moves fit.
    So, what can WE do? First, we must ensure that U.S. defense funding 
needs are met. Second is to ensure the transition to a Trump 
Administration that fully understands and supports these goals. Third 
is to continue to recognize Russia's threats as a whole and to support 
U.S. efforts to address these threats.

(1) JBANC has been urging swift passage of the $3.4 billion European 
Reassurance Initiative in the Defense bill, and we're happy to see 
additional funding being provided for Overseas contingencies. ERI has 
been a response to increasing Russian aggression and supports increased 
U.S. investment in five areas: 1) presence, 2) training and exercises, 
3) infrastructure, 4) prepositioned equipment, and 5) building partner 
capacity.
    We aren't excited about the prospect of a Continuing Resolution 
lasting well into spring--we'd prefer longer term planning and 
commitment--but we do see ample evidence that there is overwhelming 
support in Congress for addressing Russia's rising militarism. It is 
imperative to send the message that the United States means business 
and that we will continue to stand against tyranny. While our NATO 
Allies Britain, Canada, and Germany are establishing high readiness 
combat battalions in Estonia, Latvia, and Lithuania, respectively, it 
is vital to continue showing the U.S. flag in the Baltic countries as 
well, with ongoing increased forward presence regular rotational 
deployments, operations, exercises, and more. We can't forget the key 
National Guard relationships. Nor the important Nordic relationships.

(2) As we reach out to the new Trump Administration, we are reminded 
about statements made which question the purpose and existence of NATO, 
and the commitment of its members. JBANC stands firm in its belief that 
NATO and America's commitment to its NATO Allies is fundamental to 
ensuring U.S. and European security, and urges the next Administration 
to continue to support all NATO Allies, including the Baltic countries, 
and reaffirm commitment to the Treaty's Article V.
    The Baltic countries are undeniably strong in their commitments to 
NATO and fully understand what is at stake. Although challenged in 
fully rebuilding their militaries over the past 25 years, they have 
worked to fulfill their NATO obligations. Estonia spends over 2% of GDP 
of pledged defensive expenditures, and while currently just under 2%, 
Latvia and Lithuania have been increasing their military budgets more 
rapidly than any of the other NATO members over the past few years, and 
will be reaching that threshold soon. There has been rock-solid 
commitment and engagement by the Baltic countries in supporting NATO 
and U.S.-led actions.
    The Alliance faces increasing unconventional threats. It is 
imperative for allies to share their collective knowledge in key 
security areas--whether cyber, strategic communication, or in the 
energy security sphere. Estonia, Latvia, and Lithuania make substantial 
contributions in all of these areas.
    The United States cannot allow any weakening of resolve or 
commitment to our allies. The ironclad long-lasting leadership of the 
United States in NATO is critically important. Baltic-Americans 
particularly understand the importance of effective U.S. leadership in 
supporting these alliances.
    Together with our partners, the Central and East European 
Coalition, we represent not just three, but 13 communities in the U.S. 
and more than 20 million Central and Eastern European Americans. 
Together, we strongly back the United States' continued unconditional 
commitment to upholding the NATO Treaty as well as U.S. support for the 
territorial integrity and sovereignty of all Central and Eastern 
European nations. The organization stands firm in its belief that 
America's close cooperation with all NATO Allies and partners is 
fundamental to ensuring U.S. and European security.
    We are reminded of the words of then-NATO Supreme Allied Commander 
Gen. Philip Breedlove, who stated at a hearing of the U.S. House Armed 
Services Committee in February this year that ``Russia has chosen to be 
an adversary and poses a long-term existential threat to the United 
States and to our European allies and partners.'' Earlier this year the 
CEEC sponsored a policy forum on NATO's stance on Russia on Capitol 
Hill. A major theme of the discussion characterized Russia's increasing 
aggression since 2008 not only in terms of fanning regional conflicts 
but as a fundamental assault on the post-World War II international 
order.

(3) Russia's ongoing wars are of the greatest concern. I personally 
feel that the Putin and Assad regimes should be investigated for war 
crimes in their bombing campaigns in Syria. However, Moscow's crimes 
against Ukraine are also horrible and must not be ignored. Having 
Russian missiles deployed to Kaliningrad within striking distance of 
capitals in Poland, Germany, the Baltics, and Belarus is very worrying. 
Russia's actions have the potential to escalate to a wider European 
conflict. Our efforts to deter such threats now are critical. In 
addition, Russia's unrelenting disinformation campaign and other hybrid 
threats of destabilization put all of our allies at great peril.
    While the legislation to support military funding is finalized, we 
must also remember to support efforts to stymie Russian disinformation, 
to support sanctions against the Putin regime to uphold human rights 
through the Global Magnitsky Act, and to support Ukraine, particularly 
now via H.R. 5094, the Stability and Democracy (STAND) for Ukraine Act. 
This helps push for sanctions against Russia and supports Ukraine's 
territorial integrity, particularly the nonrecognition of Crimea's 
annexation.
    We look forward to working with all of you in the coming year to 
ensure the continued security, stability, and well-being of the Baltic 
countries as NATO Allies and partners. Thank you for the opportunity to 
speak here today.
 



                                 [all]
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                              * * *

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                              * * *


           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                              * * *


                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
